           U.S. Department of
                                                                            Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                                         Date:   August 24, 2011
           Single Audit on the New Jersey Transit Corporation
           Report No. QC-2011-167
                                                                                      Reply To    JA-20
  From:    Earl C. Hedges                                                              Attn Of:
           Program Director for Single Audit

    To:    Regional Administrator, FTA, Region II

           The U.S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the New Jersey Transit Corporation (New Jersey Transit). This
           report presents the results of our Quality Control Review (QCR) of a single audit
           performed by Ernst & Young, LLP, on New Jersey Transit for the fiscal year
           ending June 30, 2010. During this period, New Jersey Transit expended
           approximately $715 million from DOT grant programs, as shown in the attached
           Schedule of Expenditures of Federal Awards. The major programs tested by Ernst
           & Young included the Federal Transit Cluster and Formula Grants for Other than
           Urbanized Areas Program.

           The Office of Management and Budget's (OMB) Circular A-133, “Audits of
           States, Local Governments, and Non-Profit Organizations,” requires the auditor to
           render an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.

           Ernst & Young rendered an unqualified (clean) opinion on New Jersey Transit's
           financial statements, and did not question any costs concerning DOT programs.
           Ernst & Young also rendered an unqualified opinion on DOT's two major
           programs. 1

           SCOPE

           The purpose of our QCR was to determine: (1) whether the audit work complied
           with generally accepted government auditing standards, the Single Audit Act of
           1984, as amended (the Act), and OMB Circular A-133, and (2) the extent to which
           we could rely on the auditor’s work on DOT's two major programs.


           1
               The single audit report issued by Ernst & Young, LLP is available upon request. Requests should be sent
               to singleauditrequest@oig.dot.gov.
                                                                                 2

RESULTS

Based on our QCR, we determined the work of Ernst & Young to be Acceptable,
and therefore met the requirements of generally accepted government auditing
standards, the Act, and OMB Circular A-133. We found nothing to indicate that
Ernst & Young's opinion on New Jersey Transit's financial statements or reports
on New Jersey Transit's internal controls and compliance were inappropriate or
unreliable.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                        #

Attachment

cc: Audit Liaison, FTA, TPM-2
    Audit Liaison, OST, M-1
    Deputy CFO and Controller, New Jersey Transit Corporation
